No.

IN THE SUPREME COURT OF THE UNITED STATES
MEGHAN KELLY, PETITIONER
V.
THE UNITED STATES OF AMERICA, THE PRESIDENT OF THE UNITED
STATES, PRESIDENT DONALD TRUMP, RESPONDENT
ON PETITION FOR A WRIT OF CERTIORARI TO
THE DELAWARE SUPREME COURT
PROOF OF SERVICE

I, Meghan Kelly, do declare that on this date, August 23, 2021, as required
by Supreme Court Rule 29, I have served the enclosed MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI
on each party to the above proceeding or that party’s counsel, and on every other
person required to be served, by depositing a box containing the above documents in
the United States mail properly addressed to each of them and with first-class
postage prepaid, or by delivery to a third-party commercial carrier for delivery
within 3 calendar days.

The names and addresses of those served are as follows: Solicitor General of
the United States, Room 5614; 950 Pennsylvania Avenue. NW, Washington, DC
20530-0001; David Weiss, Esq., the US Department of justice for the District;
of DE, 1313 N. Market St., Wilm., DE 19801; Merrick Garland, Esq., The US

Department of Justice, 950 PA Ave. NW Ste 7141,Washington, DC 20530
I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 23, 2021

      

Meghan Kelly, Esquire
34012 Shawnee Drive
Dagsboro, DE 19939
Pro Se, not represented by
counsel
meghankellyesq@yahoo.com
(302) 390-8266, limited minutes
 

oa Kel ye

rel
DECLARED TO AND SUBSCRIBED before me this 23 day of

, 2021.
Publ Margaet ay lor i

abe 25 Beh C. & 4323CA)C3) Del Bor 1D2ATI
